TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Affordable Care Act: Planning Efforts
                      for the Tax Provisions of the Patient
                       Protection and Affordable Care Act
                   Appear Adequate; However, the Resource
                    Estimation Process Needs Improvement



                                           June 14, 2012

                              Reference Number: 2012-43-064




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                    HIGHLIGHTS


AFFORDABLE CARE ACT: PLANNING                           appropriate plans had been developed to
EFFORTS FOR THE TAX PROVISIONS                          implement tax-related provisions of the ACA
OF THE PATIENT PROTECTION AND                           using well-established methods for implementing
AFFORDABLE CARE ACT APPEAR                              tax legislation. The IRS’s plans addressed tax
                                                        forms, instructions, and most of the affected
ADEQUATE; HOWEVER, THE
                                                        publications, as well as employee training,
RESOURCE ESTIMATION PROCESS                             outreach and guidance to taxpayers and
NEEDS IMPROVEMENT                                       preparers, computer programming, and data
                                                        needs.

Highlights                                              The IRS projected its Fiscal Years 2012 and
                                                        2013 ACA staffing needs to be 1,278 Full-Time
Final Report issued on June 14, 2012                    Equivalents and 859 Full-Time Equivalents,
                                                        respectively. The IRS has not projected staffing
Highlights of Reference Number: 2012-43-064             needs beyond Fiscal Year 2013. A lack of
to the Internal Revenue Service Deputy                  documentation to support the staffing
Commissioner for Services and Enforcement.              requirements needed to implement the ACA
                                                        precluded TIGTA from providing an opinion on
IMPACT ON TAXPAYERS                                     the adequacy of staffing requests to support
                                                        implementation. The IRS did not analyze each
The Patient Protection and Affordable Care Act          provision to determine the amount of staffing
of 2010 (ACA) includes the largest set of tax law       necessary to implement the provision.
changes in more than 20 years. The primary
goal of the law was to reform health care. The          WHAT TIGTA RECOMMENDED
tax-related provisions in the law have a key role
in achieving that goal and affect millions of           TIGTA recommended that the IRS perform an
taxpayers. It is imperative that the IRS has            analysis to evaluate the resources necessary to
adequate plans to revise or develop new forms,          efficiently implement the provisions and ensure
publications, and instructions; train IRS               that this process is documented.
employees; and provide outreach to taxpayers            In their response to the report, IRS management
and tax professionals.                                  agreed with the recommendation. The IRS
WHY TIGTA DID THE AUDIT                                 plans to complete an evaluation by the end of
                                                        Fiscal Year 2012 of the major ACA provisions
This audit was initiated because the IRS is             for which implementation has not been
responsible for overseeing a significant part of        completed and evaluate the resources needed
the legislation that includes, but is not limited to,   for implementation, especially any with
administration of additional taxes, penalties, and      specialized skills.
fees on individuals and employers;
determinations of various exemptions from
certain taxes; and oversight of new information
reporting requirements. The new taxes, fees,
and penalties account for approximately
$438 billion. TIGTA’s objective was to assess
the IRS’s overall planning to implement the tax
provisions of the new law.
WHAT TIGTA FOUND
The ACA contains many provisions that are to
be implemented over the course of several
years, including some that required
implementation during the year the legislation
was signed into law. TIGTA found that
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  June 14, 2012


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                        Michael E. McKenney
                              Acting Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Affordable Care Act: Planning Efforts for the
                              Tax Provisions of the Patient Protection and Affordable Care Act
                              Appear Adequate; However, the Resource Estimation Process Needs
                              Improvement (Audit #201140025)

 This report presents the results of our review in assessing the Internal Revenue Service’s overall
 plan to implement the Patient Protection and Affordable Care Act of 20101 (ACA) provisions
 that affect tax administration. This audit was included in our Fiscal Year 2011 Annual Audit
 Plan and addresses the major management challenge of Implementing Tax Law Changes.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendation. Please contact me at (202) 622-5916 if you have questions or
 Randee Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
 Services) at (770) 617-6434.




 1
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
 amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
                                   Affordable Care Act: Planning Efforts for the
                                   Tax Provisions of the Patient Protection and
                                 Affordable Care Act Appear Adequate; However,
                              the Resource Estimation Process Needs Improvement




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Appropriate Plans Have Been Developed to Implement
          Most Tax-Related Provisions of the Affordable Care Act............................ Page 3
          The Internal Revenue Service Would Benefit From
          Improving the Quality of Its Resource Estimation Process .......................... Page 10
                    Recommendation 1:........................................................ Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Affordable Care Act Provisions Reviewed .......................... Page 16
          Appendix V – Management’s Response to the Draft Report ....................... Page 20
             Affordable Care Act: Planning Efforts for the
             Tax Provisions of the Patient Protection and
           Affordable Care Act Appear Adequate; However,
        the Resource Estimation Process Needs Improvement




                   Abbreviations

ACA          Patient Protection and Affordable Care Act of 2010
ESC          Executive Steering Committee
FTE          Full-Time Equivalent
HHS          Department of Health and Human Services
IRS          Internal Revenue Service
IT           Information Technology
MITS         Modernization and Information Technology Service
PMO          Program Management Offices
TIGTA        Treasury Inspector General for Tax Administration
                              Affordable Care Act: Planning Efforts for the
                              Tax Provisions of the Patient Protection and
                            Affordable Care Act Appear Adequate; However,
                         the Resource Estimation Process Needs Improvement




                                           Background

The Patient Protection and Affordable Care Act of 20101 and the Health Care and Education
Reconciliation Act of 2010 2 that made amendments to it (collectively referred to as the ACA
hereafter) were both signed into law in March 2010 and together contain over 500 provisions.
Over 40 of these provisions added to or amended the Internal Revenue Code. These provisions
provide incentives and tax breaks to individuals and small businesses to offset health care
expenses. They also impose penalties, administered through the tax code, for individuals and
businesses that do not obtain health care coverage for themselves or their employees. Revenue
provisions contained in the legislation are designed to generate $438 billion3 to help pay for the
overall cost of health care reform. Additionally, new reporting requirements have been
established. Another intended purpose of the ACA is to make health insurance more affordable
and available through incentives.
                                                                          The ACA represents the
The Internal Revenue Service’s (IRS) role with respect        largest set of tax law changes
to the ACA is to implement and administer the various           in more than 20 years and
tax provisions included in the ACA. Implementation of         presents  a major challenge to
                                                              the Internal Revenue Service.
the ACA presents a major challenge to the IRS as the
ACA represents the largest set of tax law changes in
more than 20 years and affects millions of taxpayers. Steps to implement the ACA provisions
related to tax administration involve numerous actions such as revising or developing new forms,
publications, and instructions; creating new computer programs; training IRS employees;
revising Internal Revenue Manuals; issuing revenue procedures and regulations; and providing
outreach to taxpayers and tax professionals. Although provisions of the ACA go into effect
gradually over many years, some provisions required immediate action, including the Small
Business Health Care Tax Credit, the Qualifying Therapeutic Discovery Credit, the Tanning
Excise Tax, and the expanded Adoption Credit. These provisions were not included in this
review but were audited separately.4 The effective dates of the ACA provisions range from Tax
Year 2009 (retroactively) to Tax Year 2018.



1
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
2
  Pub. L. No. 111-152, 124 Stat. 1029. (See Affordable Care Act, infra).
3
  Joint Committee on Taxation, JCX-17-10, Estimated Revenue Effects of the Amendment in the Nature of a
Substitute to H.R. 4872, the “Reconciliation Act of 2010,” as Amended, in Combination With the Revenue Effects
of H.R. 3590, the “Patient Protection and Affordable Care Act (‘PPACA’),” as Passed by the Senate and Scheduled
for Consideration by the House Committee on Rules on March 20, 2010 (March 20, 2010).
4
  Treasury Inspector General for Tax Administration (TIGTA) audit numbers 201140045, 201140040, 201140001,
and 201140033, respectively.
                                                                                                        Page 1
                           Affordable Care Act: Planning Efforts for the
                           Tax Provisions of the Patient Protection and
                         Affordable Care Act Appear Adequate; However,
                      the Resource Estimation Process Needs Improvement


One major provision of the ACA reform is the requirement for individuals to maintain minimum
essential health care coverage or face a continuous penalty. The penalty will be imposed on any
taxpayer who, for any month after Calendar Year 2013, fails to maintain minimum essential
health care coverage.
This review to evaluate the IRS’s plan to implement ACA provisions related to tax
administration was conducted by analyzing data obtained from the IRS National Headquarters
Affordable Care Act Office located in Washington, D.C., during the period October 2010
through January 2012. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                            Page 2
                             Affordable Care Act: Planning Efforts for the
                             Tax Provisions of the Patient Protection and
                           Affordable Care Act Appear Adequate; However,
                        the Resource Estimation Process Needs Improvement




                                    Results of Review

Appropriate Plans Have Been Developed to Implement Most
Tax-Related Provisions of the Affordable Care Act
To begin the major task of implementing the tax-related provisions of the ACA, the IRS created
the following Executive Steering Committees, Offices, and Teams (see Figure 1).
       The ACA Executive Steering Committee (ESC) is responsible for overall program
        coordination and implementation of the ACA across the IRS. This committee is
        co-chaired by the Deputy Commissioner for Services and Enforcement and the Deputy
        Commissioner for Operations Support. It also includes the IRS Chief of Staff and other
        IRS executives, including the business operating division commissioners, et al.
       Three program management offices (PMO): 1) Services and Enforcement;
        2) Modernization and Information Technology Services (MITS);5 and 3) Health Care
        Council. These PMOs are accountable to the ESC for ACA implementation and work
        with the IRS business operating divisions to ensure efforts are successfully coordinated.
       Four functional ESCs, each led by an executive chair, have responsibility for specific
        provisions in the ACA that directly affect the four business operating divisions (Wage
        and Investment, Small Business/Self-Employed, Large Business and International, and
        Tax Exempt/Government Entities).
       The Services and Enforcement Exchange Working Teams are responsible for planning
        the implementation of the exchange provisions scheduled for 2014.




5
 A separate TIGTA audit reviewed the planning efforts by the MITS organization and reported separately. See
TIGTA, Ref. No. 2011-20-105, The Modernization and Information Technology Services Organization Is Effectively
Planning for the Implementation of the Affordable Care Act (Sept. 2011).
                                                                                                      Page 3
                               Affordable Care Act: Planning Efforts for the
                               Tax Provisions of the Patient Protection and
                             Affordable Care Act Appear Adequate; However,
                          the Resource Estimation Process Needs Improvement


          Figure 1: ACA Executive Steering Committees, Offices, and Teams



                                                 IRS ACA Executive
                                                 Steering Committee




                                                    Services &         HealthCare Council
                            MITS ACA PMO
                                                 Enforcement PMO             PMO




                   Individual          Small Business         Large Industry         Tax Exempt
                 Functional ESC        Functional ESC         Functional ESC        Functional ESC



                                       Services and
                                  Enforcement Exchange
                                     Working Teams



           Source: IRS National Headquarters Affordable Care Act Office.

Well-established methods are being used to implement ACA provisions
The IRS Legislative Affairs function is responsible for implementation planning and monitoring
of legislation passed by Congress having significant impact on the IRS. Legislative Affairs uses
the Legislative Analysis Tracking and Implementation Services system to help accomplish this
responsibility. The system tracks all provisions, actions, and status of enacted legislation that
affects the IRS. The system also tracks and monitors all initiatives and milestones.
In addition to the Legislative Analysis Tracking and Implementation Services system, the IRS is
using other mechanisms for planning and tracking the progress of ACA provisions. For
example, the Integrated Project Plan is being used for the exchange provisions.6 It shows that a
plan exists for the exchanges with details such as milestones, deliverables, and detailed tasks.
The IRS also created a sharepoint site7 to document ACA planning and implementation efforts.
Each ESC as well as the PMOs has separate segments on the sharepoint site. Information on the
sharepoint site includes, but is not limited to, ACA news releases, legal guidance, and


6
  A health insurance exchange is a set of State-regulated and standardized health care plans from which individuals
may purchase health insurance.
7
  A content management system that allows groups to set up a centralized space for document sharing.
                                                                                                            Page 4
                              Affordable Care Act: Planning Efforts for the
                              Tax Provisions of the Patient Protection and
                            Affordable Care Act Appear Adequate; However,
                         the Resource Estimation Process Needs Improvement


communications. The site is used to provide updates and coordinate efforts across operating
divisions.
We analyzed the IRS’s preparations for implementing 30 major ACA provisions (see
Appendix IV for the specific provisions reviewed) that appeared to require IRS action.8
Effective dates for the provisions reviewed varied widely, and the IRS was in various stages of
preparation for each. Five provisions were effective during the same calendar year the
legislation was enacted, while one provision is not effective until Calendar Year 2018. (Figure 2
indicates the effective dates of the provisions and the number of provisions in a particular year.)
                      Figure 2: Effective Dates of Provisions Reviewed




       Source: TIGTA analysis of ACA provision effective dates.




8
  We did not review specific provisions analyzed in other TIGTA audits as well as some minor provisions requiring
minimal action by the IRS. Separate TIGTA audits were conducted on ACA provisions affecting the following
topics: Qualifying Therapeutic Discovery Credit, Tanning Excise Tax, Small Business Health Care Tax Credit, and
expanded Adoption Credit. Separate TIGTA audits are also reviewing ACA provisions affecting the Tax
Exempt/Government Entities Division.
                                                                                                          Page 5
                              Affordable Care Act: Planning Efforts for the
                              Tax Provisions of the Patient Protection and
                            Affordable Care Act Appear Adequate; However,
                         the Resource Estimation Process Needs Improvement


We reviewed each of the 30 provisions to ensure the IRS has plans to address the following (as
applicable):9
       Tax forms, instructions, and publications.
       Employee training.
       Outreach and guidance to taxpayers and preparers.
       Computer programming.
       Additional data needed to ensure compliance.
Eleven of the provisions reviewed during this audit related to the health insurance exchanges.
The majority of the exchange provisions have an implementation date for tax years after
December 31, 2013. The IRS had not developed detailed actions to implement these provisions
at the time the audit was conducted. However, the IRS did have in place an ACA Exchange
High-Level Roadmap (the Roadmap). The Roadmap details achievement milestones by calendar
year quarter in implementing the exchange provisions for which the IRS is responsible. For
example, the Roadmap includes preparation planning for ACA forms and changes to the
individual income tax forms and schedules to accommodate the ACA exchange requirements.
The Roadmap also includes plans for the issuance of proposed and final regulations for the
penalty associated with not maintaining “minimal essential coverage” and includes additional
guidance on information returns required by the ACA.
Tax Forms, Instructions, and Publications
Two tiers of controls are in place for ensuring that forms, instructions, and related publications
are updated for ACA provisions. The first tier is the informed assessment conducted by the Tax
Forms and Publications function. This function reviews new legislation and identifies a “first
cut” of what forms, publications, and instructions need to be revised for every legislative
provision.
The second tier is the business assessment, performed by subject matter experts in the business
units and aided by the Tax Forms and Publications function. Often the business units will
confirm what the Tax Forms and Publications function identified and may identify additional
affected forms, publications, and instructions.
We determined that forms, publications, or instructions would need to be created or revised to
address 18 of the ACA provisions included in our review. The IRS had created new forms and
updated existing forms and publications or had documented plans to do so for most of these



9
 We limited our analysis on two of the 30 provisions. We reviewed Section 9014 for compliance requirements only
and Section 1409 for compliance and employee training requirements.
                                                                                                       Page 6
                             Affordable Care Act: Planning Efforts for the
                             Tax Provisions of the Patient Protection and
                           Affordable Care Act Appear Adequate; However,
                        the Resource Estimation Process Needs Improvement


provisions. We found three provisions that did not appear to have the related publications
addressed in the IRS’s action reports.
We brought this issue to the IRS’s attention and, in response, it provided target dates for the
update of the publications that had been overlooked. Figure 3 lists the documents not scheduled
for updates and their status as of the date of this report.
               Figure 3: Status of Publications Not Scheduled for Update

             Section Number                               Document              Current Status

1408 – Elimination of unintended application
                                                        Publication 510             Updated
of cellulosic bio-fuel producer credit.
9012 – Elimination of deduction for expenses
                                                        Publication 502             Updated
allocable to Medicare Part D subsidy.
10908 – Exclusion for assistance provided to
participants in State student loan repayment            Publication 970             Updated
programs for certain health professionals.
Source: IRS National Headquarters Affordable Care Act Office.

Employee Training
Although a certain amount of training is required for any tax law change, we determined that
more in-depth training would be required for the following six provisions in our review:
        Section 1401      Refundable tax credit providing premium assistance for coverage under a
                          qualified plan.
        Section 1405      Excise tax on medical device manufacturers.
        Section 1409      Economic substance doctrine and penalties.
        Section 1411      Procedures for determining eligibility for exchange participation,
                          premium tax credits, reduced cost sharing, and individual responsibility
                          exemptions.
        Section 9016      Modification of Code Section 833 treatment of certain health
                          organizations.
        Section 9022      Establishment of simple cafeteria plans for small businesses. (For this
                          provision, the IRS stated that it would not make changes to the
                          employment tax training materials related to the ACA, but cases in the
                          field were being monitored to determine if any specific issues would
                          require additional guidance.)


                                                                                              Page 7
                           Affordable Care Act: Planning Efforts for the
                           Tax Provisions of the Patient Protection and
                         Affordable Care Act Appear Adequate; However,
                      the Resource Estimation Process Needs Improvement


With the exception of Sections 9016 and 9022, we found that the IRS planned specific training
for each of these provisions that would be provided closer to the provisions’ dates of impact to
the field. Since Section 9016 took effect for tax years beginning after December 31, 2009,
employee training was started and completed by September 2010, and additional training is
scheduled for June of 2012. As for Section 9022 (as noted above), the IRS will monitor cases in
the field and provide training as needed.
Outreach and Guidance to Taxpayers and Preparers
New legislation usually requires providing information to the public (taxpayers and tax
preparers). This is especially true for the ACA, for which the IRS is implementing and
controlling many new rules and regulations. The IRS provides information through many
means, including tax forms, instructions and publications, news releases, fact sheets, flyers, tax
tips, videos, and webinars. The IRS also issues notices requesting comments by those affected
by the provisions to help identify further outreach needs.
Taxpayers and preparers need outreach and guidance in a large majority of the provisions we
reviewed. With the exception of the few publications discussed earlier, guidance or outreach
was completed or adequately planned for each of these provisions. For example, Section 1401,
effective for tax years beginning after December 31, 2013, provides certain individuals who
purchase qualified health care coverage through the exchanges a refundable income tax credit
equal to the amount of the premium assistance credit. The IRS has a number of outreach efforts
in process or planned for this provision, including development of forms, publications, and
instructions to reflect the new refundable credit; updates to the Internal Revenue Manual; and
development of regulations regarding the refundable tax credit. The IRS solicited comments
from the public and will develop additional outreach if warranted.
Computer Programming
The IRS created the ACA-PMO to develop system solutions to support and execute the IRS’s
portion of the ACA. This office is responsible for achieving the goals, enhancing and extending
existing applications, and managing and integrating the required components, which include
building new services and applications. MITS organization management worked closely with
the business teams to review the legislation. The MITS organization also analyzed the
legislative requirements and existing architecture to determine the level of impact the legislation
requirements would have on its legacy Information Technology (IT) environment.
We determined that 21 provisions included in our review would need IT support to accomplish
implementation. The IRS had identified these needs and at the time of our review had made
appropriate plans to deliver the needed IT support for all but two provisions, Sections 9005 and
9010. Although the IRS was aware it might need IT support to accomplish the requirements of
these provisions, it had not yet made those determinations. The IRS informed us that it would
discuss the necessary IT support regarding these provisions and make appropriate plans in


                                                                                             Page 8
                           Affordable Care Act: Planning Efforts for the
                           Tax Provisions of the Patient Protection and
                         Affordable Care Act Appear Adequate; However,
                      the Resource Estimation Process Needs Improvement


meetings planned for February and April of 2012. These provisions do not take effect until
Calendar Year 2013 and Calendar Year 2014, respectively.
While the ACA-PMO reported that all programming changes scheduled to be operational
between January and April of 2012 were on schedule, it also reported that certain ACA
implementation risks related to the delivery of IT support remained. TIGTA has additional
audits scheduled to monitor the development and delivery of IT support. TIGTA will address
these concerns in those audits.
Additional data needed to ensure compliance
Ensuring compliance with the ACA will require compliance and enforcement resources, as well
as the compilation of specific data. In certain instances, the IRS needs additional data beyond
what it already captures or has available in order to ensure and enforce compliance. For
example, Section 1405 provides for an excise tax equal to 2.3 percent of the price for a medical
device sold by the manufacturer, producer, or importer. To ensure compliance with this
provision, the IRS is obtaining data from the Food and Drug Administration to identify the
manufacturers, producers, and importers that are subject to the tax.
We determined that the IRS would need additional data to address compliance issues or to
otherwise implement the ACA requirements for at least eight of the provisions included in our
review. These provisions include the following:
       Section 1401    Refundable tax credit providing premium assistance.
       Section 1405    Excise tax on medical device manufacturers.
       Section 1409    Economic substance doctrine and penalties.
       Section 1501    Requirement to maintain minimum essential coverage.
       Section 1513    Shared responsibility for employers.
       Section 6301    Patient-centered outcomes research trust fund (a fee will be imposed on
                       each specified health insurance policy or self-insured plan whose plan
                       year ends after September 30, 2012).
       Section 9008    Annual fees assessed on branded prescription pharmaceutical
                       manufacturers and importers.
       Section 9014    Limitation on deductions for remuneration paid by health insurer
                       providers.
For each of the eight provisions identified above, we found that the IRS has plans to address the
compliance issues associated with the provisions.



                                                                                           Page 9
                               Affordable Care Act: Planning Efforts for the
                               Tax Provisions of the Patient Protection and
                             Affordable Care Act Appear Adequate; However,
                          the Resource Estimation Process Needs Improvement


The Compliance Document Matching and Industry Fees function (a function within the
MITS-PMO) is responsible for the design development, implementation, and support of new
applications necessary to ensure compliance and prevent fraud.

The Internal Revenue Service Would Benefit From Improving the
Quality of Its Resource Estimation Process
The IRS received funding for the implementation of ACA provisions from the Health Insurance
Reform Implementation Fund administered by the Department of Health and Human Services
(HHS) as provided for in the ACA. The legislation provided $1 billion in funding to the IRS and
other participating agencies for implementation work necessary during Fiscal Years 2010 and
2011. Some provisions were retroactive to Tax Year 2009, e.g., Section 10908.10 Funding up to
$350 million was available to the IRS for implementation costs. The IRS requested and was
provided more than $20 million in Fiscal Year 2010 and obligated more than $168 million for
Fiscal Year 2011.
Our audit included an analysis of the preparations made by the IRS to ensure adequate staffing is
available to effectively implement ACA provisions. As of May 2, 2011, the IRS reported that it
had hired 495 new employees and had plans to hire an additional 87 new employees by the end
of September 2011 to assist in implementing the provisions associated with the ACA. Actual
ACA spending for Fiscal Year 2011 included 582 full-time equivalents (FTE).11 In addition, the
IRS absorbed some of the costs and work associated with implementing ACA provisions into its
normal business operations and budget. The IRS projected its Fiscal Years 2012 and 2013 ACA
staffing needs to be 1,278 FTEs and 859 FTEs, respectively. The IRS has not projected staffing
needs beyond Fiscal Year 2013.
We expected to find a specific analysis of each provision to determine the amount of staffing
necessary to implement the provisions. For example, for the ACA Small Business Health Care
Tax Credit (Section 1421), the TIGTA obtained from the IRS specific projected FTE
requirements necessary to implement the provision for specific IRS functions. This included
staffing effects on collection, customer service, and returns processing. Then, based on the
specific needs of each function, an overall number of FTEs was determined as necessary to
implement this provision.
However, the IRS did not perform similar analyses for each provision. We were, therefore,
unable to determine whether the IRS has an adequate workforce in place or planned, and we are
concerned with the methods used to project the number of employees needed.


10
   Any student loan that is forgiven, which is intended to provide increased health coverage in an underserved area,
shall not be included in gross income.
11
   A measure of labor hours in which one FTE is equal to eight hours multiplied by the number of compensable days
in a particular fiscal year.
                                                                                                          Page 10
                             Affordable Care Act: Planning Efforts for the
                             Tax Provisions of the Patient Protection and
                           Affordable Care Act Appear Adequate; However,
                        the Resource Estimation Process Needs Improvement


In a previously issued report,12 TIGTA expressed similar concerns regarding the process used to
estimate IRS staffing levels. In that report, TIGTA stated that when estimating staffing levels of
revenue officers, the IRS did not determine the number needed to address the available
workload. Instead, it primarily estimated the revenue officer staffing level based on a budget
figure provided by the IRS Chief Financial Officer.
The methods used for estimating ACA staffing requirements appear similar to the process used
in estimating revenue officer staffing levels based on the documentation provided by the IRS. It
appears that the IRS has had difficulty in estimating the number of employees it needs to hire to
complete work that is routinely completed in the normal course of business (the revenue officer
estimates). Our concern with the ACA implementation centers around the estimation of the
number of employees needed to perform work created by the ACA that is completely new to the
IRS.
For example, Section 9007 of the ACA requires charitable hospitals to conduct a community
health needs assessment at least once every three years and adopt an implementation strategy to
meet the community needs identified through the assessment. The IRS is responsible for
reviewing, at least once every three years, the community benefit activities of each hospital
organization affected by this provision. The review of these assessments is a process new to the
IRS, and estimating the staffing requirements for the reviews could be difficult. A key element
of effective workforce planning is determining the size of the workforce needed to meet
organizational goals and indentifying gaps between current and future workforce needs.
Without a more in-depth, scientific method for estimating staffing levels, the IRS is likely to
overestimate or underestimate ACA staffing needs.

Recommendation
Recommendation 1: The Deputy Commissioner for Services and Enforcement should
conduct an analysis to evaluate the resources necessary to efficiently implement the ACA
provisions and ensure that this process is documented.
        Management’s Response: IRS management agreed with this recommendation. The
        IRS plans to complete, by the end of Fiscal Year 2012, an evaluation of the major ACA
        provisions where implementation has not been completed and evaluate the resources
        needed for implementation, especially any with specialized skills.




12
 TIGTA, Ref. No. 2011-30-039, Challenges Remain to Balance Revenue Officer Staffing With Attrition and
Workload Demands, p.5 (May 2011).
                                                                                                    Page 11
                              Affordable Care Act: Planning Efforts for the
                              Tax Provisions of the Patient Protection and
                            Affordable Care Act Appear Adequate; However,
                         the Resource Estimation Process Needs Improvement


                                                                                                Appendix I


         Detailed Objective, Scope, and Methodology

The objective of this review was to assess the IRS’s overall plan to implement ACA1 provisions
that affect tax administration. To accomplish this objective, we:
I.      Evaluated whether the IRS had indentified and scheduled the actions necessary to
        implement the ACA provisions affecting tax administration.
        A. Reviewed the ACA and determined its affect on tax administration.
             1. Identified provisions of the ACA that affect the IRS.
                 a. Obtained a copy of the Commerce Clearing House’s Law, Explanation and
                    Analysis – Patient Protection and Affordable Care Act 2010.
                 b. Reviewed provisions applicable to tax administration in the ACA and
                    determined their effective date.
             2. Analyzed tax administration provisions in the ACA that take effect during Tax
                Year 2010 and subsequent tax years and determined the steps the IRS must take to
                fully implement the provisions.
                 a. Determined whether new provisions require IRS employees to receive early or
                      additional training in order to ensure that all outside inquiries receive the
                      proper responses.
                 b. Determined whether taxpayers and practitioners needed to receive guidance
                      and information to ensure that they were fully informed.
                 c. Assessed whether new provisions require the development of new or revised
                      forms, schedules, instructions, or publications.
                 d. Analyzed each provision and determined whether computer programming was
                      required.
                 e. Reviewed each provision and determined whether the IRS must capture
                      third-party data in order to ensure compliance.
                 f.   Determined whether provisions required new or expanded operations.


1
 Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
                                                                                                         Page 12
                            Affordable Care Act: Planning Efforts for the
                            Tax Provisions of the Patient Protection and
                          Affordable Care Act Appear Adequate; However,
                       the Resource Estimation Process Needs Improvement


         B. Determined whether the IRS had identified actions necessary to implement the
            provisions, and determined what actions had been taken to ensure implementation.
            1. Contacted the IRS to discuss the steps taken to identify the actions needed to
               implement ACA provisions.
            2. Obtained and reviewed the Implementation Plan coordinated and developed by
               Legislative Affairs to ensure all actions identified as necessary in Step I.2.a–f
               were included in the plan.
II.      Determined whether the resources available to the IRS were adequate to ensure
         successful implementation of the provisions, and determined whether the IRS
         appropriately allocated those resources.
         A. Determined whether the IRS identified funding requirements, and determined the
            steps taken to assess whether the allocated funding was adequate.
            1. Obtained budget data from the IRS business operating divisions to determine the
               funding available to implement the provisions reviewed.
            2. Interviewed IRS management to determine the analyses used to request and
               allocate funding to the provisions and ensure the allocations were adequate.
         B. Interviewed IRS management regarding staffing needs for implementing specific
            provisions of the ACA to determine whether provisions requiring additional staffing
            were adequately addressed.
  Internal controls methodology
  Internal controls relate to management’s plans, methods, and procedures used to meet their
  mission, goals, and objectives. Internal controls include the processes and procedures for
  planning, organizing, directing, and controlling program operations. They include the systems
  for measuring, reporting, and monitoring program performance. We determined the following
  internal controls were relevant to our audit objective: the IRS’s processes for planning for
  implementation of the ACA provisions affecting tax administration and health care reform. We
  evaluated these controls by interviewing management and analyzing implementation plans and
  planning efforts.




                                                                                           Page 13
                         Affordable Care Act: Planning Efforts for the
                         Tax Provisions of the Patient Protection and
                       Affordable Care Act Appear Adequate; However,
                    the Resource Estimation Process Needs Improvement


                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R. Andersen, Director
Bill R. Russell, Audit Manager
W. George Burleigh, Lead Auditor
Dana M. Karaffa, Audit Evaluator
Jane G. Lee, Auditor




                                                                                    Page 14
                         Affordable Care Act: Planning Efforts for the
                         Tax Provisions of the Patient Protection and
                       Affordable Care Act Appear Adequate; However,
                    the Resource Estimation Process Needs Improvement


                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities SE:T
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Tax Exempt and Government Entities SE:T
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PEI
       Program Manager, Policy and Strategic Planning, Communications, Liaison, and
       Disclosure, Small Business/Self-Employed Division SE:S:CLD:PSP




                                                                                      Page 15
                                   Affordable Care Act: Planning Efforts for the
                                   Tax Provisions of the Patient Protection and
                                 Affordable Care Act Appear Adequate; However,
                              the Resource Estimation Process Needs Improvement


                                                                                                      Appendix IV

                 Affordable Care Act Provisions Reviewed

  This appendix presents the provisions from the ACA1 reviewed during this audit. The provisions
  are listed by section number from the legislation, with a brief description of the provision.

Provision Section No.                                                Provision Explanation

1004 – Health insurance benefits            This provision extends benefits for medical care expenses under an
extended to children under age 27           employer-provided accident or health plan to any child of an employee who
                                            has not attained age 27 as of the end of the taxable year. A deduction is
                                            available equal to the amount paid for health insurance for the taxpayer,
                                            spouse, dependents, and child (who has not attained age 27). Effective on
                                            March 30, 2010.

1311 – Affordable choices of health         Payments made to the States are used to set up exchanges. Later, the States
benefit plans                               must make payments to plans on behalf of individuals to defray the cost of the
                                            additional benefits. After 2013, the States report to the Secretary of the
                                            Treasury with a list of all taxpayers who qualify for the premium tax credit
                                            because their employer plan does not provide essential minimum coverage, is
                                            not affordable, and does not achieve required minimum actuarial value.
                                            Effective after December 31, 2013.

1401 – Refundable tax credit providing      The amount of this credit depends on taxpayers’ premiums in relation to their
premium assistance for coverage under       income levels and their incomes’ relation to the poverty level. Eligible
a qualified health plan                     individuals’ incomes must exceed 100 percent but not exceed 400 percent of
                                            the poverty level. Dependents are not eligible for the credit, and married
                                            couples must file a joint return to claim the credit. Applies to taxable years
                                            beginning after December 31, 2013.

1402 – Reduced cost-sharing for             Individuals whose incomes are between 100 percent and 400 percent of the
individuals enrolling in qualified health   poverty level can have their out-of-pocket limit decreased by two-thirds,
plans                                       one-half, or one-third. The Secretary of the Treasury will help to prescribe
                                            rules for calculating the poverty level. Effective after December 31, 2013.

1405 – Reconciliation Act Excise Tax        A tax equal to 2.3 percent of the price for which a medical device is sold by the
on medical device manufacturers             manufacturer, producer, or importer. Effective after December 31, 2012.

1408 – Elimination of unintended            Modifies the cellulosic bio-fuel producer credit to exclude fuels that contain
application of cellulosic bio-fuel          significant amounts of water, sediment, or ash. The purpose of this provision
producer credit                             is to limit credits related to the use of “black liquor.” Black liquor is a
                                            by-product of paper production that is reused as a fuel and then recycled back
                                            into the production cycle. Effective after December 31, 2009.




  1
   Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
  amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
                                                                                                                 Page 16
                                    Affordable Care Act: Planning Efforts for the
                                    Tax Provisions of the Patient Protection and
                                  Affordable Care Act Appear Adequate; However,
                               the Resource Estimation Process Needs Improvement



Provision Section No.                                              Provision Explanation

1409 – Codification of economic           Clarifies economic substance doctrine and applies to penalties for
substance doctrine and penalties          underpayments attributable to transactions lacking economic substance,
                                          nondisclosed transactions, reasonable cause exceptions for underpayments
                                          and understatements, and erroneous claim for refund or credit to noneconomic
                                          substance transactions. Effective after March 30, 2010.

1411 – Procedures for determining         A program is to be established that will help determine who is to be covered
eligibility for exchange participation,   through an exchange and who qualifies for the premium tax credit or reduced
premium tax credits and reduced           cost sharing. The Secretary of the Treasury is required to verify household
cost-sharing, and individual              income and family size for purposes of eligibility. Effective no later than
responsibility exemptions                 January 1, 2013.

1412 – Advance determination and          The Secretary of the Treasury would make advance payments to issuers of
payment of premium tax credits and        the qualified health plans in order to reduce the premiums payable by these
cost-sharing reductions                   individuals. Illegal residents are not eligible. Effective after December 31,
                                          2013.

1414 – Disclosures to carry out           Upon written request from the Secretary of HHS, the Secretary of the Treasury
eligibility requirements for certain      can disclose taxpayer information that is pertinent to health-related credits and
programs                                  plans. Effective after December 31, 2013.

1415 – Premium tax credit and             Advanced payments to eligible individuals are not to be included in income
cost-sharing reduction payments           and are to be viewed as being made payable to qualified health plans and not
disregarded for Federal and Federally     to individuals. Effective for tax years ending after December 31, 2013.
assisted programs

1501 – Requirement to maintain            Those individuals who do not maintain minimum essential coverage will be
minimum essential coverage                imposed a penalty. Any penalty imposed shall be included in taxpayers’
                                          returns. Taxpayers at or below the poverty level will not be assessed the
                                          penalty. The IRS cannot assess a lien or levy on those individuals who do not
                                          pay the penalty. Effective after December 31, 2013.

1502 – Reporting of health insurance      (Section 1502c) – By June 30 of each year, the IRS, in consultation with the
coverage                                  Secretary of HHS, will send a notice to each individual who files a return and
                                          who is not enrolled in minimum essential coverage. Section 6055c –
                                          Statements of employer-provided coverage must be furnished to the Secretary
                                          of HHS by January 31 of each year. These must include plan participants and
                                          amounts paid by employer and employee. Effective for calendar years
                                          beginning after 2013.

1513 – Shared responsibility for          Any large employer (50+ full-time employees) that fails to provide its
employers                                 employees with the opportunity to enroll in a minimum essential coverage
                                          employer-sponsored plan or who has at least one employee qualify for the
                                          premium tax credit or any advanced payments, will be imposed an
                                          “assessable payment” equal to one-twelfth of $2,000 times the number of
                                          full-time employees. Effective after December 31, 2013.

1514 – Reporting of employer health       Large employers must file a return in which they state whether or not they
insurance coverage                        have provided health plans for their full-time employees and whether the plans
                                          meet at least the minimum essential coverage criteria. Effective after
                                          December 31, 2013.


                                                                                                               Page 17
                                 Affordable Care Act: Planning Efforts for the
                                 Tax Provisions of the Patient Protection and
                               Affordable Care Act Appear Adequate; However,
                            the Resource Estimation Process Needs Improvement



Provision Section No.                                               Provision Explanation

6301 – Patient-centered outcomes          A $2 fee will be imposed on each specified health insurance policy or
research                                  self-insured plan whose plan year ends after September 30, 2012. The $2 is
                                          then multiplied by the average number of participants covered under the plan.
                                          The fee is designed to return net revenues for the Patient-Centered Outcomes
                                          Research Trust Fund. The Secretary of the Treasury will be the trustee. The
                                          fee will be adjustable based on national health expenditures. The fee would
                                          not apply to plan years and policies ending after September 30, 2019.

9001 – Excise tax on high cost,           A 40 percent excise tax is imposed on high-cost, employer-sponsored
employer-sponsored health coverage        coverage if the value of coverage exceeds $10,200 (self-only) or $27,500 (not
                                          self-only). Each coverage provider would be liable to pay the tax. Each
                                          employer would be responsible for calculating the amount of excess subject to
                                          the tax and will be assessed a penalty if calculated incorrectly. Effective for
                                          tax years beginning after December 31, 2017.

9002 – Inclusion of cost of               Employers must report the cost of employer-covered heath coverage on
employer-sponsored health coverage        Forms W-2. Amounts contributed to Archer Medical Savings Accounts, Health
on Form W-2, Wage and Tax Statement       Savings Accounts, or Flexible Spending Arrangements are not included.
                                          Effective for taxable years after December 31, 2010.

9004 – Increase in additional tax on      Tax on distributions from Health Savings Accounts and Archer Medical
distributions from Health Savings         Savings Accounts for unqualified medical expenses will increase to 20 percent
Accounts and Archer Medical Savings       (from the current 10 percent). Effective after December 31, 2010.
Accounts not used for qualified medical
expenses

9005 – Limitation on health Flexible      Employer contributions to a health Flexible Spending Arrangement will not be
Spending Arrangements                     treated as a qualified benefit unless an employee may not elect to have salary
                                          reduction contributions in excess of $2,500. Previously there was no set limit.
                                          Effective after December 31, 2012.

9008 – Imposition of annual fee on        Any branded prescription drug manufacturer or importer who sells more than
branded prescription pharmaceutical       $5 million to a specified government program in any given year will be
manufacturers and importers               assessed an annual fee. Agencies must report expenses to the Secretary of
                                          the Treasury on an annual basis. Amount owed will be based on market
                                          share. Effective after December 31, 2010.

9010 – Imposition of annual fee on        An annual fee will be imposed on health insurance providers whose written net
health insurance providers                premiums exceed $25 million. The fee is an allocated amount based on
                                          market share, with the total industry fee starting at $8 billion in 2014 and rising
                                          to $14.3 billion in 2018 and an indexed amount after that. The fee is viewed
                                          as an excise tax. Each insurance provider that fails to file their premiums
                                          report will be assessed a penalty of $10,000 plus the lesser of $1,000 times
                                          the number of days late or the amount of the fee imposed for which the report
                                          was required. The fee does not apply to employers who self-insure their
                                          employees or certain government entities. The annual fee portion is effective
                                          after December 31, 2013.




                                                                                                                Page 18
                                  Affordable Care Act: Planning Efforts for the
                                  Tax Provisions of the Patient Protection and
                                Affordable Care Act Appear Adequate; However,
                             the Resource Estimation Process Needs Improvement



Provision Section No.                                                Provision Explanation

9012 – Elimination of deduction for         A sponsor’s deduction for Medicare Part D expenses will be eliminated. The
expenses allocable to Medicare Part D       amount otherwise allowable as a deduction for retiree prescription drug
subsidy                                     expenses is reduced by the amount of the excludable subsidy payments
                                            received. Effective after December 31, 2012.

9013 – Modification of itemized             The applicable threshold for deducting medical expenses is increased from
deduction for medical expenses              7.5 percent to 10 percent of Adjusted Gross Income. A temporary waiver of
                                            this increase will apply to those attaining age 65 before the close of any
                                            taxable year between December 31, 2012, and January 1, 2017. Effective
                                            after December 31, 2012.

9014 – Limitation on excessive              Compensation deductions for executive pay at certain health insurance
remuneration paid by certain health         companies cannot exceed $500,000. The company has to provide insurance
insurance providers                         and receive premiums, and less than 25 percent of premiums received cannot
                                            be from minimum essential coverage plans. Effective tax years beginning
                                            after December 31, 2009, with respect to services performed after such date.

9015 – Additional hospital insurance        An additional hospital insurance tax on high-income taxpayers. The additional
tax on high-income taxpayers                tax is equal to 0.9 percent of wages of taxpayers whose wages exceed
                                            $250,000 (joint) or $125,000 (married filing separately) or $200,000 (all
                                            others). In addition to the additional tax on wages, an additional tax equal to
                                            0.9 percent of self-employment income will be assessed to those taxpayers
                                            whose self-employment income exceeds $250,000 (joint) or $200,000 (not
                                            joint). Effective after December 31, 2012.

9016 – Modification of Code                 Section 833 would not be applicable unless the amount of expenses for
Section 833 treatment of certain health     clinical services exceeds 85 percent of premiums received. Effective after
organizations                               December 31, 2009.

9022 – Establishment of simple              Small businesses which employ an average of 100 or fewer employees can
cafeteria plans for small businesses        set up a basic cafeteria plan. The employer would be required to make a
                                            contribution for each employee. The contribution could be a uniform
                                            percentage (not less than 2 percent of compensation) or a fixed amount (not
                                            less than 6 percent of compensation or twice the salary reduction contributions
                                            of each employee). The plan allows for broader exclusions than in the past,
                                            e.g., based on the number of hours worked, age, and years of service.
                                            Effective after December 31, 2010.

10108 – Free Choice Vouchers                An employer must offer free choice vouchers to employees whose required
                                            premium would exceed 8 percent of their household income but not exceed
                                            9.8 percent, and whose household income does not exceed 400 percent of
                                            poverty level, and who do not participate in an employer’s health plan. The
                                            voucher amount will be excluded from gross income to the extent it does not
                                            exceed plan cost. Employers who must do this are those who offer minimum
                                            essential coverage plans and pay a portion of each employee’s premium.
                                            Effective after December 31, 2013.

10908 – Exclusion for assistance            Any student loan amount that is forgiven, which is intended to provide
provided to participants in State student   increased health coverage in an underserved area, shall not be included in
loan repayment programs for certain         gross income. Effective after December 31, 2008.
health professionals


                                                                                                               Page 19
           Affordable Care Act: Planning Efforts for the
           Tax Provisions of the Patient Protection and
         Affordable Care Act Appear Adequate; However,
      the Resource Estimation Process Needs Improvement


                                                 Appendix V

Management’s Response to the Draft Report




                                                       Page 20
     Affordable Care Act: Planning Efforts for the
     Tax Provisions of the Patient Protection and
   Affordable Care Act Appear Adequate; However,
the Resource Estimation Process Needs Improvement




                                                 Page 21
